                                                                Issue Date
                                                                         May 9, 2012
                                                                
                                                                Audit Report Number
                                                                             2012-SE-1003




TO:         Jack Peters, Director, Office of Community Planning and Development, 0AD

            //signed//
FROM:       Ronald J. Hosking, Regional Inspector General for Audit, 0AGA

SUBJECT: Washington State Generally Complied With HOME Program Requirements;
           However, It Did Not Always Verify Project Accessibility or Report Accurate
           Matching Contributions


                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Washington State Department of Commerce to determine whether
             it complied with the HOME Investment Partnerships Program project eligibility,
             administrative cost, program income, accessibility, and match fund requirements.
             We selected the State because it received more than $31 million in HOME grants
             from the U.S. Department of Housing and Urban Development (HUD) in fiscal
             years 2009 through 2011, which placed it at the top of our risk assessment for
             Region X (Alaska, Idaho, Oregon, Washington).

 What We Found


             The State generally complied with HOME requirements. It selected eligible
             projects and correctly accounted for administrative costs and program income.
             However, it did not always (1) verify that HOME projects met accessibility
             standards or (2) report accurate matching contributions to HUD.




                                             1
What We Recommend


           We recommend that HUD require the State to develop and implement procedures
           for more detailed HOME project inspections and direct the project in Stanwood,
           WA, to bring its accessible units into compliance with accessibility standards. We
           also recommend that the State develop and implement procedures to verify that
           funds included as match meet all HOME affordability requirements and reduce the
           match carry-forward by $797,135.

           The Seattle Office of Community Planning and Development provided a
           management decision on May 7, 2012. It included planned actions with
           implementation dates for all of the recommendations as required under HUD
           Handbook 2000.06, REV-4. We concur with the management decision.

Auditee’s Response

           We provided the discussion draft of the audit report to the State on April 18,
           2012, and requested its comments by May 3, 2012. The State chose not to
           provide a written response.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                    4

Results of Audit
      Finding 1: The State Did Not Verify HOME Project Accessibility        5
      Finding 2: The State Did Not Report Accurate Matching Contributions   7

Scope and Methodology                                                       9

Internal Controls                                                           10




                                            3
                      BACKGROUND AND OBJECTIVE

State of Washington

The HOME Investment Partnerships Program funds allocated to the State of Washington are
administered by the State’s Department of Commerce Housing Division. The State works with
private lenders, nonprofit organizations, and other government sources to create, preserve, and
enhance safe and affordable housing for Washington residents. It uses HOME funds for new
construction, acquisition, and rehabilitation of affordable rental housing and provides tenant-
based rental assistance. The State has received more than $31 million in HOME funds over the
past 3 years.

                                Grant year          Grant amount
                                  2009               $11,401,291
                                  2010               $10,595,235
                                  2011                $9,266,253
                                  Total              $31,262,779

HOME Program

The U.S. Department of Housing and Urban Development’s (HUD) HOME program is
authorized under Title II of the Cranston-Gonzalez National Affordable Housing Act. The
HOME regulations are contained in 24 CFR (Code of Federal Regulations) Part 92. HOME
funds are awarded annually as formula grants to State and local governments to create affordable
housing for low-income households. According to 24 CFR 92.218(a), each fund recipient must
make matching contributions to housing that qualifies as affordable housing under the HOME
program. The contributions must total not less than 25 percent of the HOME funds drawn.

Our objective was to determine whether the State complied with HOME program project
eligibility, administrative cost, program income, accessibility, and matching contribution
requirements.




                                                4
                                 RESULTS OF AUDIT

Finding 1: The State Did Not Verify HOME Project Accessibility
The State did not verify that HOME projects met accessibility standards. This condition
occurred because the State relied entirely on an inspection contractor to conduct site visits. As a
result, it lacked assurance that projects’ units complied with accessibility standards.



 Accessibility Was Not Verified


               The State did not verify that HOME projects met accessibility standards. State
               inspectors did not complete detailed inspections for accessibility compliance.
               According to 24 CFR 8.22(b), new multifamily housing projects must have at
               least two units readily accessible and usable by individuals with handicaps. The
               State is required to perform onsite inspections of HOME-assisted rental housing
               to determine compliance with accessibility standards as specified under 24 CFR
               92.504(d)(1). The design, construction, or alteration of buildings in conformance
               with the Uniform Federal Accessibility Standards (UFAS) meets these
               requirements.


 Monitoring Was Inadequate


               The State relied entirely on inspection contractors to conduct site visits to verify
               project construction progress, including compliance with accessibility
               requirements. The inspection contractor issued a project evaluation report that did
               not identify accessibility noncompliance in the accessible unit we inspected at a
               project in Stanwood, WA. The State should have used its annual monitoring
               inspections to verify the contractor’s inspection results. It would have identified
               this noncompliance if it had performed a more detailed inspection during its
               annual monitoring visit.


 Units Might Not Meet
 Standards

               The State lacked assurance that its units complied with accessibility standards.
               For example, at the Stanwood project, the accessible unit’s kitchen cabinets were
               too high from the floor to be reached by a person in a wheelchair.




                                                 5
        60 inches




          UFAS 4.34.6.10(1) requires kitchen cabinets that are mounted over counters be a
          maximum of 48 inches above the floor.

Recommendations



          We recommend that the Director of HUD’s Seattle Office of Community
          Planning and Development require the State to

                  1A.   Develop and implement procedures for more detailed HOME project
                        inspections, including accessible unit compliance with accessibility
                        standards.

                  1B.   Direct the project to bring its accessible units into compliance with
                        accessibility standards.




                                          6
                                RESULTS OF AUDIT

Finding 2: The State Did Not Report Accurate Matching Contributions
The State did not report accurate matching contributions to HUD. This condition occurred
because the State did not review the projects’ contracts for HOME affordability compliance. As
a result, it could incorrectly apply $797,135 in ineligible excess matching funds toward future
match liabilities.



 Inaccurate Match
 Contributions Were Reported

              The State did not report accurate matching contributions to HUD. It used its funding
              of non-HOME-assisted projects to meet its matching contribution requirement. To
              qualify non-HOME project funding as a matching contribution under 24 CFR
              92.219(b)(2)(ii), the State must have contracts with the project owners incorporating
              all of the HOME affordability requirements. The requirements at Part 92.252(a)
              state that rent cannot exceed 30 percent of the adjusted income of a family whose
              annual income equals 65 percent of the median income for the area.

              The State’s 2010 reported matching contributions consisted of the funding provided
              to seven housing projects. The contracts for two of the projects exceeded the
              HOME affordability requirements by allowing rents of up to 30 percent of
              household income at or below 80 percent of the median income for the area.
              Therefore, the funding of the two projects, totaling $797,135, could not be included
              in the reported matching contributions.

 Match Project Contracts Were
 Not Reviewed

              The State did not review the projects’ contracts for HOME affordability
              compliance. The State obtained non-HOME project information from its database
              to determine its matching contribution. However it did not consistently verify
              that the selected projects met HOME grant matching requirements.

 Ineligible Matching Funds
 Could Be Carried Forward

              The State could incorrectly apply $797,135 in ineligible excess matching funds
              toward future match liabilities. According to 24 CFR 92.221(b), excess matching
              contributions may be carried over and applied to future fiscal years’ match
              liabilities.

                                                7
Recommendations



          We recommend that the Director of HUD’s Seattle Office of Community
          Planning and Development require the State to

          2A.     Develop and implement procedures to verify that funds included as match
                  meet all the HOME affordability requirements.

          2B.     Reduce its excess matching contribution balance by $797,135.




                                          8
                           SCOPE AND METHODOLOGY

We performed our onsite audit work between January and February 2012 at the State’s office
located at 1011 Plum Street SE., Olympia, WA, and at six project sites located in the State of
Washington. Our review covered the period January 1, 2009, through December 31, 2011.

To accomplish our objective, we reviewed applicable laws, regulations, and HUD requirements;
met with HUD and State staff members; and examined the State’s policies and procedures,
reports to HUD, project monitoring schedules, and grant agreements. We also analyzed the
State’s program income, administrative costs, and matching funds relevant to the HOME
program during our audit period.

We selected all seven of the HOME projects approved during the audit period for review. We
examined each project’s file, including applications, contracts, and the first and last HOME fund
drawdown. We conducted site visits at six of the seven projects selected; inclement weather
prevented one project visit. During the site visits, we inspected the exterior of the property and
interior of four randomly selected HOME units, including at least one unit for each bedroom size
and an accessible unit when applicable. We also reviewed the tenant files of these units for
eligibility at the five projects that had tenants.

Project            1            2            3            4            5            6            7
HOME funds    $2,550,000   $1,123,235   $1,280,000   $1,920,207   $1,996,443   $1,393,654   $2,000,000
received
Number of         19           20           11           11           10           7            10
HOME units
Number of          8           9            6            9            5            5            1
drawdowns

We used the source documentation maintained at the State to compare to information in HUD’s
Integrated Disbursement and Information System. We did not rely on automated data to support
our audit conclusions. All conclusions were based on source documentation reviewed during the
audit.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.




                                                 9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                  Controls over inspecting HOME projects for accessibility compliance.
                  Controls over properly reporting matching contributions.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.


 Significant Deficiencies


               Based on our review, we believe that the following items are significant deficiencies:

                  The State did not inspect HOME projects for compliance with accessibility
                   standards (finding 1).
                  The State did not check project contracts for conformance with affordability
                   requirements before reporting projects as matching contributions (finding 2).



                                                 10
Separate Communication of
Minor Deficiencies


           Minor internal control issues were reported to the auditee in a separate
           memorandum.




                                            11
